Office of Inspector General

     Review of NARA’s
Internal Control Procedures
      For Loan Items

     Report No: 06-04

    December 19, 2005
                                                                   OIG Audit Report #06-04




Executive Summary:

The Office of Inspector General (OIG) audited the National Archives and Records
Administration (NARA) loan program to determine whether NARA complied with
established procedures for loaning and transporting NARA holdings and ensure holdings
are adequately safeguarded and properly accounted for throughout the loan lifecycle.

Our audit identified instances in which certain loaned records and artifacts may have
been lost while others may be at risk of loss. This condition exists because management
has not consistently complied with the guidance for loaning records and artifacts. The
agency’s established guidance for loaning and transporting holdings is found in NARA
Directives 1701 and 1702.

Specifically we found:
   • No loan documentation existed for 157 items loaned to a Presidential Library
       Foundation.
   • Loan extension documentation for 12 loans was missing.
   • The loan period for six loans exceeded the one year requirement of NARA 1701
       that went into effect on September 1, 1999.
   • 22 outstanding loans were not reported in the Office of Regional Records Services
       (NR) Quarterly Overdue Loan Report.
   • NARA’s Director of Space and Security Management Division (NAS) was not
       notified when loaned material was reported as missing pursuant to NARA 1701
       and 1702.
   • NARA 1701 and 1702 did not require that the IG be notified when loaned
       material was reported as missing.
   • NARA did not maintain a database of open, overdue, uncollectible, and missing
       loans.

As a result of these conditions, NARA’s chain of custody is broken, the Archivist is not
receiving information on the number of loans lost or unrecoverable, and offices charged
with taking action on reported lost or missing records were not notified.

This report contains five recommendations addressing our findings. The implementation
of these recommendations will address weaknesses cited in the report and strengthen
NARA oversight of the loan program.




                                           1
                     National Archives and Records Administration
                                                                   OIG Audit Report #06-04


Background:

The objective of NARA’s loan program is to ensure that holdings are made available to
qualified borrowers without placing the holdings at risk or threatening their continued
availability in the future. NARA’s successful compliance with this objective ties directly
into “The Strategic Plan of the National Archives and Records Administration, Ready
Access to Essential Evidence, 1997-2008.” For more than six decades it has been the role
of NARA to preserve and provide access to the records of the American people. Loans
made following established guidance contribute to NARA’s meeting the plan’s third
strategic goal, “Essential evidence is easy to access regardless of where it is or where
users are for as long as needed.”

In response to recommendations in OIG Report No. 98-05, Evaluation of NARA’s
Physical and Recordkeeping Controls Over Outgoing Shipments of Permanent Records
and Artifacts, NARA implemented several regulations to provide guidance covering
criteria for loans and their transportation. NARA 1701, Loans of Holdings in NARA's
Physical and Legal Custody, and NARA 1702, Transporting Holdings in NARA's
Physical and Legal Custody went into effect on September 1, 1999. Three years later on
March 15, 2002, NARA supplemented the regulations with procedures for having
overdue loans declared as unrecoverable.

NARA 1701 establishes the procedures for loans made to Federal agencies and courts,
the Supreme Court, and Congress for official business; to the President, Vice President,
former Presidents or Vice Presidents or donors, or their designated representative; or to
NARA and non-NARA organizations for exhibit purposes. The regulation authorizes the
following units, in consultation with (if necessary) the Space and Management Division
(NAS) (for loan-related security matters) and Preservation Programs, Office of Records
Services – Washington, DC (NWT) to review and approve or deny loan requests for
holdings:
    1. The custodial unit;
    2. Public Programs (NWE); or
    3. The Initial Processing/Declassification Division, with LICON concurrence.

The authorized units can make loans for exhibits and for purposes other than exhibits.
NA Forms 16001 and 16002 are used by NARA offices to send and document the receipt
of items loaned for exhibits. NA Form 14014 is used to send and document the receipt of
loans made for other than exhibits purposes to the originating federal agency, Congress,
the Supreme Court and other NARA offices. Examples of loans for other than exhibit
purposes are when the originating agency requests records back for work purposes or
records are sent out for preservation work.

NARA 1702 establishes guidance for transporting holdings that are in NARA’s physical
and legal custody to ensure their protection, physical safety, and return to NARA. The
regulation authorizes custodial units, in consultation with NAS and NWT, to determine
the most appropriate method of shipment for holdings. The lending unit must consult
with NAS when shipping holdings that contain sensitive material, are of high intrinsic

                                           2
                     National Archives and Records Administration
                                                                      OIG Audit Report #06-04


value, are of large volume, and are likely to be subject to security threats, or require
cooperation of Federal or local law enforcement agencies. The lending unit consults
NWT on packing and shipping methods.

After NARA 1701 was issued, the former Archivist received quarterly overdue loan
reports with many loans reported as overdue. The former Director of Policy and
Communications Staff (NPOL) issued a letter with the procedure for having overdue
loans declared as unrecoverable on March 15, 2002. The procedures allowed custodial
units to recommend declaring overdue loans as unrecoverable. The custodial units
prepare a dossier for each loan and send it to NR, Office of Presidential Libraries (NL),
or Office of Records Services – Washington, DC (NW). The dossiers are reviewed by
NR, NL, or NW, who consult with General Counsel (NGC) and makes recommendations
to the Archivist (N) for approval to declare the loans unrecoverable. After NPOL’s letter
was issued, five Regional Records Services Directors submitted dossiers to have loans
declared as unrecoverable. NR and NGC concurred with the Regional Directors and in
November 2002 NR forwarded to the Archivist a memo recommending the loans be
declared unrecoverable. These items were court dockets, U.S. Army Corps of Engineers
lock and dam files and a native Indian estate file loaned back to district courts and federal
agencies.

NARA has no central loan database. In order to determine the universe of open loans the
OIG auditor requested NR, NL, and NW to provide their number of open loans as of
December 2004. NR and NL had to contact their Regional Archival Operations and
Presidential Libraries respectively to obtain the number of open loans. NL reported 12
Presidential Libraries with 140 open loans as of December 6, 2004. NR reported 11
Regional Archives Operations with 44 open loans as of December 17, 2004. NW reported
11 open exhibit loans as of December 15, 2004. The open loan total of 195 includes loans
made in FY 2005 and prior fiscal years that had been extended. Overdue loans were not
included in the totals. Overdue loans are reported quarterly by NW, NR, and NL to the
Archivist. NR reported 26 overdue loans at five Regional Archives Operations as of
September 30, 2004. NL and NW reported no overdue loans as of September 30, 2004.

Objectives, Scope, and Methodology:

The objective of the audit was to determine if loans are made in accordance with
procedures established in NARA 1701 and 1702 and were protected from loss.
Specifically, the review was to determine whether NARA is maintaining required
documentation to ensure items on loan can be adequately accounted for, documenting a
continuous chain of custody, and ensuring that these items are properly transported. In
addition, the audit evaluated whether NPOL’s procedures for having loans declared as
unrecoverable were followed.

The audit was performed by reviewing all open loan file documentation and interviewing
NARA staff at NR, NL, NW, and NWE (Exhibits) offices at College Park, Maryland,
Pacific Region San Francisco Archival Operations (NRHSA), Great Lakes Region
Chicago Archival Operations (NRDCA), Northeast Region Boston Archival Operations

                                            3
                      National Archives and Records Administration
                                                                                 OIG Audit Report #06-04


(NRABA), Central Plains Region Kansas City Archival Operations (NREKA), Southwest
Region Fort Worth Archival Operations (NRFFA), the Ronald Reagan Presidential
Library (NLRR), the Gerald R. Ford Library (NLGRF) and Museum (NLGRFM), and the
Franklin D. Roosevelt Presidential Library (NLFDR). The auditor examined all open
loan 1 files (61) at these sites. In addition as time permitted, closed loan documentation in
the current and two prior fiscal years were randomly selected and examined.

The audit was conducted between November 2004 and July 2005, and was performed in
accordance with generally accepted government auditing standards.




1
    An open loan is a loan where the documents/artifacts borrowed have not been returned.

                                                 4
                           National Archives and Records Administration
                                                                   OIG Audit Report #06-04


Findings:

Incomplete and Missing Loan Documentation

Loan forms and pertinent loan documentation was not adequately completed for all loans
reviewed. This condition existed because management did not ensure loans were
completed and processed in accordance with NARA 1701 and 1702. This guidance
requires that a completed and signed copy of either NA Form 16002 or 14014 be placed
in the loan file to document the duration, changes of custody, and condition of loaned
items. NARA records and artifacts cannot be properly accounted for when loan
documentation is not adequately filled out and maintained. Additionally the chain of
custody is broken when loan records do not reflect critical elements of the loan such as
who the borrower is, where the items were shipped, and who took custody of the shipped
item.

We reviewed documentation for 61 open loans at seven NARA facilities including:
NWE, NLRR, NLGRF, NLFDR, NRHSA, NRDCA, and NRABA to determine whether
loans were appropriately documented. We found that loan documentation was not
complete as it was missing one of the following: (1) documentation for an entire loan; (2)
documentation extending the period of loans past the due dates; and (3) the loan due
dates.

No loan documentation existed for 157 items loaned to President Ronald Reagan Library
Foundation when the library was opened in November 4, 1991. NARA 1701 went into
effect on September 1, 1999, and requires a loan form for all loans. Our review revealed
that NLRR had not yet prepared a loan document for the items on loan to the President
Ronald Reagan Library Foundation. NLRR staff said the items were loaned to the
Foundation when the Library was opened. Since the Foundation and NLRR were
collocated in the same building, the former staff did not believe they were required to
prepare a loan document. The Director of NLRR was informed that no loan document
exists for the 157 items on loan. Subsequently, NLRR staff emailed a plan to correct the
condition.

The items loaned were sculptures, crystals, vases, paintings, clocks, a ceremonial sword,
and other gifts given to President Ronald Reagan and Nancy Reagan. The list of 157
items included:
    • A white porcelain woman kneeling
    • A footed silver engraved dish
    • Waterford crystal
    • A porcelain, quadrilateral vase styled with multi-colored Chinese designs
    • Photograph of the flag raising at Iwo Jima signed by Joe Rosenthal and the
        marines
    • An Arabian gold plated saber with rhinestones
    • An Ivory handle sword case sheath in 23K gold plate with rubies and sapphires.



                                           5
                     National Archives and Records Administration
                                                                    OIG Audit Report #06-04


Twelve loan files at, NLFDR, NLGRFM, and NRHSA were missing required
documentation evidencing that the loans had been extended. The staff did not review the
loan files and identify when loan extension documentation was needed and aggressively
follow-up and obtain signed documentation. Specifically, seven loans at NLFDR, three
loans at NLGRFM, and two loans at NRHSA were missing required signed loan
extensions before the old loans expiration dates. Our review of two NLGRF loan files
made in 1998 found the files did not contain a loan form with a due date and no follow-
up written correspondence was made until December 2004 and February 2005.
The auditor found in one NLFDR loan file a letter sent in April 2004 requesting a new
loan agreement to replace the old loan agreement that expired on May 1, 2004. A signed
agreement was not received from the borrower and seven months passed before a second
letter was sent. There was no new loan agreement when the auditor reviewed the file in
March 2005. Examples of items covered by the loans are:
    • Bronze colored plaster bust of Franklin D. Roosevelt
    • Red, white, and blue quilted NRA bedspread
    • Birch bark canoe used by FDR at Campobello

Six loans at NRHSA and NLGRFM either did not have an expiration date or were for
multiple years. NARA 1701 requires loan agreements to have a return date not to exceed
one year. The two NRHSA loans had blank due dates. This condition of leaving the due
date blank was observed in our review of previously completed loans at NRDCA. Nine
NRDCA loans made and returned in 2003 had no due dates. A loan of 11 items to
President Gerald R. Ford was not supported with a current NA Form 14014. A loan
agreement was prepared and signed for the items loaned to President Ford on January 25,
1986. The period of the loan was indefinite. These items were loaned to President Ford
before NARA 1701 went into effect on September 1, 1999. The old loan agreement was
not in accordance with NARA 1701 guidance. NLGRF staff did not prepare a loan form
to replace the outdated loan agreement. One NLGRF loan made on December 2, 1994,
had the term indefinite period instead of a due date. The other two loans were for three or
more years. Examples of items covered by NLGRFM loans are:
    • A 17 - inch sculpture given by Leonid Brezhnez
    • Photo Albums from various heads of states containing photos of Gerald R. Ford’s
        official state visits.

The Library and Regional Directors at the various facilities were asked by the auditor
whether they reviewed their loan program and were aware of the problems identified in
the audit. The responses received stated that the loan program was assigned to staff
within their organization who they relied on and that they had not reviewed the loan
program data nor were they aware of the problems documented by the auditor.

After our visit to NLRR and NLFDR, the offices sent documentation showing they have
taken corrective action. NLRR has implemented a process to photograph, enter the items




                                           6
                     National Archives and Records Administration
                                                                    OIG Audit Report #06-04


in the iO 2 system and sign a loan agreement with the Foundation. NLFDR have signed
extensions with the borrowers for the seven loans discussed previously in the report.

Recommendation 1:

We recommend the Assistant Archivist for the Office of Regional Records Services and
the Assistant Archivist for Presidential Libraries insure all loans meet the documentation
requirements of NARA 1701 and 1702.

Management Comments

Management concurred with the finding and recommendation.


Unreported Overdue Loans

Twenty-two overdue loans at the Fort Worth Region Center Archival Operations
(NRFFA) and Kansas City Region Center Archival Operations (NREKA) were not
reported to NR for inclusion in their quarterly overdue loans report to the Archivist. The
Directors of NRFFA and NREKA said they were instructed by management in 1999 not
to report loans over 10 years old as overdue. NARA 1701 defines overdue loans as
holdings not returned to NARA by the established due date. NARA 1701 requires that if
the borrower does not return the loan after being contacted twice, the loan is reported as
overdue. The custodial unit head creates a dossier explaining the circumstances, a copy
of NA Form 14014, a written summary of verbal contacts, copies of all relevant
correspondence and any other pertinent documentation. Per procedure the dossier is sent
to NL, NW, or NR who consult with NGC and makes recommendations to the Archivist
for further action as appropriate. This procedure has not been accomplished. As a result,
the Archivist was not receiving overdue loan reports with accurate and pertinent data to
make decisions on whether:
    • to send a letter requesting the loan items be returned in 60 days
    • request the OIG or NAS to do an analysis on the missing loan items
    • declare the loans as unrecoverable.

We followed up on 269 loans identified as overdue in the prior OIG Report No. 98-05.
We were able to account for 247 of these loans. However, for the remaining 22 loans that
were 10 to 20 years old we were informed that a former NR staffer had made a decision
to not comply with NARA 1701. Thus, they were not identified as overdue loans. We
interviewed the Assistant for Operations, NR, to verify that NR staff had instructed the
directors not to report old loans. The Assistant for Operations said he and his staff were
unaware of the reporting instructions or that overdue loans were not reported in the
quarterly overdue loan reports. The Assistant for Operations said he assumed the position

2
 Automated Collections Management Database (iO) is collection management software
developed for NARA and used by the Presidential Libraries for collection management.

                                           7
                     National Archives and Records Administration
                                                                   OIG Audit Report #06-04


in the fall of 1999 and the former Assistant Archivist for Office of Regional Records
Services and a former staff member were issuing instructions to the region. The Assistant
for Operations said that there was no written documentation indicating the regions were
instructed not to report old overdue loans. However, the Assistant for Operations said that
the former staff may have interpreted NARA 1701 as not applying to old loans and issued
the verbal instructions. The Assistant for Operations agreed the loans should be reported
as overdue or unrecoverable following NARA procedures.

Recommendation 2:

We recommend the Assistant Archivist for the Office of Regional Records Services, in
accordance with NARA 1701 procedures for overdue loans, prepare and submit dossiers
for the 22 overdue loans to have them reviewed by the Archivist for further action.

Management Comments

Management concurred with the finding and recommendation.




Reporting Problem Loans

Loans that were determined to be missing or unrecoverable were not reported to NAS or
the OIG. Neither the custodial unit nor central office management reported missing or
unrecoverable loan information to NAS or the OIG. NARA 1701 requires management to
report missing loans to NAS. As a result, neither NAS nor the IG were made aware of the
unrecoverable/missing status of loaned items for appropriate resolution.

Our visit to NRDCA identified two loans to the U.S. Army Corps of Engineers (USACE)
St. Paul [MN] District were reported as unrecoverable. The loans were made in 1994 and
1995. After several requests by NRDCA that the loans be returned, on August 1, 2002,
the USACE records officer reported that the loaned records could not be located.
Following NARA procedures to have the two loans classified as unrecoverable and
dropped from the overdue loan report, NRDCA prepared a dossier for each loan and sent
them to NR on November 7, 2002. NRDCA staff does not recall being informed by NR
staff their requests to have the loans classified as unrecoverable were approved. The
dossiers were returned to NRDCA, but NR did not include documentation showing the
Archivist of the United States approved the requests. However, these lost loan items were
not reported to NAS as required by NARA 1701. Effective September 1, 1999, NARA
1701 requires if holdings are missing, the custodian unit should attempt to ascertain the
status of missing holdings and notify NAS. The Director of NAS said he was not made
aware the two NRDCA loans were lost. The director said he and his staff have no
recollection of being informed of any other lost loans. When the IG was informed of the
two lost NRDCA loans, the IG stated he was not made aware that the loans were lost.
The IG said to his knowledge, the Office of Inspector General has never received

                                           8
                     National Archives and Records Administration
                                                                  OIG Audit Report #06-04


documentation on any lost loans. The IG said all lost loans and documentation should be
sent to his office. Subsequently the OIG can institute appropriate action as warranted.



Recommendations 3:

We recommend the Assistant Archivist for Regional Records Services ensure NARA
1701 procedures are followed for notifying NAS when NARA is notified or becomes
aware when a loan has been lost or missing.

Management Comments

Management concurred with the finding and recommendation.


Recommendation 4:

We recommend the Director of Office of Policy and Communication amend NARA 1701
to require the OIG be notified of all lost/missing loans and requests to classify overdue
loans as unrecoverable.

Management Comments

Management concurred with the finding and recommendation



Loan Database

No comprehensive loan database exists to track and monitor loan activity within NARA.
NARA’s 1701, Loan of Holdings in NARA’s Physical and Legal Custody, does not
require a database for loans to be maintained by either the custodial unit, NR, NL, NW,
or other components of NARA. OMB Circular A-123, Management’s Responsibility for
Internal Control, states management is responsible for establishing and maintaining
internal controls to achieve objectives of effective and efficient operations, reliable
financial reporting, and compliance with applicable laws and regulations. Effective
internal controls provide assurance that loans are made in accordance with NARA 1701
procedures. A comprehensive loan database would provide management with information
to adequately evaluate and make management decisions on the loan program as well as
mitigate risk to NARA holdings.

As a result of not having a comprehensive loan database, NARA management was
unaware of the following information:
    • No loan documentation existed for 157 items loaned to the President Ronald
        Reagan Library Foundation;

                                           9
                     National Archives and Records Administration
                                                                   OIG Audit Report #06-04


    •   Loan extensions were not in place prior to loan expiration dates;
    •   Long-term loans were made by stating the period of the loan was indefinite or by
        renewing multiple year loans with multiple year extensions;
    •   Loans that had no due dates entered on the loan forms; and
    •   The number of overdue loans not reported in the quarterly report.

At the start of the review, we requested the number of open loans from NW, NR, and NL.
Our points of contact in NR and NL took a couple of weeks to obtain the information
because the respective offices did not maintain a loan database. We were informed by
management at the entrance conference that the only loan information captured and
reported quarterly to the Archivist was on overdue loans. NARA 1701 did not require a
loan database and management did not establish a database to monitor the compliance
and effectiveness of the loan program’s internal controls. As a result, NARA senior
management had insufficient data to track/oversee the loan program and only received
reports when loans were listed as overdue.

A NARA wide loan database was discussed with the Assistant for Operations, NR, and
senior NL staff who agreed that a database would provide management with the
information on all loans made by NARA. The Assistant for Operations NR stated that
the database should be designed to generate the quarterly overdue loan reports submitted
to the Archivist and for reporting performance measuring data.

Recommendation 5:

The Archivist of the United States should require an organizational loan database be
established to allow monitoring of NARA’s loan programs by Assistant Archivist’s staff
to help ensure internal controls procedures are followed.

Management Comments

Management did not concur with the recommendation for an agency-wide loan database.
Management acknowledge that current loan reporting method has been shown to have
inconsistencies in reporting, but did not agree that an organizational database represents
the best business solution at this time. Management will explore other means of
addressing the underlying finding.

OIG Response

The OIG concurs with management plans to explore other means of implementing
corrective action to address the intent of this finding.




                                          10
                     National Archives and Records Administration
                                                                       OIG Audit Report #06-04


                           National Archives and Records Administration
                                                                           8601 Adelphi Road
                                                                      College Park, Maryland
                                                                                 20740-6001


Date:

To:           OIG

From:         NL, NPOL, NR, NW

Subject:      Comments on Draft OIG Report 06-04, Review of NARA’s Internal Control
              Procedures for Loan Items


Thank you for the opportunity to comment on the draft OIG report on NARA’s internal
control procedures for loan items. It is important to note that the review was based on
policies and procedures found in two NARA directives, 1701 and 1702. These directives
have been under revision since June 2005. The revisions will address the procedural
differences between loan types as well as for loans made through different program units.
The OIG will have the opportunity to comment on revisions for these directives.

We generally agree with the audit findings, but concur on only 4 of the 5
recommendations, as follows:

          Recommendation 1 relates to ensuring that all loans meet documentation
           requirements of NARA 1701 and 1702. We concur with the recommendation, but
           would like to note that these directives are undergoing revision. Specifics as to
           the documentation requirements may change.

          Recommendation 2 relates to documentation for a specific group of overdue
           loans. We concur that procedures for overdue loans be followed, and will take
           steps to prepare documentation for this group of overdue loans. As with
           recommendation 1, specifics as to procedures for overdue loans may change with
           the revision of NARA 1701 and 1702.

          Recommendation 3 relates to notification procedures when a loan has been lost or
           is missing. We concur with the recommendation and will take action to ensure
           compliance.

          Recommendation 4 relates to amending NARA 1701 to provide for OIG
           notification of all lost/missing loans and requests to classify overdue loans as
           unrecoverable. We concur with the recommendation and will incorporate this
           notification process with appropriate roles and responsibilities for each NARA
           unit in the revision now underway.


                                              11
                         National Archives and Records Administration
                                                                  OIG Audit Report #06-04


      Recommendation 5 relates to an organizational loan database. Currently,
       information on overdue loans is provided to the Archivist in quarterly reports
       from NL, NR, and NW. Each program area has its own mechanism for gathering
       this information from units that originate loans. Although this method has been
       shown to have inconsistencies in reporting, we do not agree that an organizational
       database represents the best business solution at this time. We do not concur with
       recommendation 5, but will explore other means of addressing the underlying
       finding.

If you have questions about this response, please contact Rod Carter, NR Management
Control Liaison at 301-837-1848 or via email at rod.carter@nara.gov.




SHARON FAWCETT                                     TOM MILLS
Assistant Archivist for                            Assistant Archivist for
Presidential Libraries (NL)                        Regional Records Services (NR)




SUSAN ASHTIANIE                                    MICHAEL KURTZ
Director, Policy and                               Assistant Archivist for Records
Planning Staff (NPOL)                              Services – Washington, DC (NW)




                                          12
                     National Archives and Records Administration
